<html>
<title> - [H.A.S.C. No. 111-30]EFFECTIVE COUNTERINSURGENCY: HOW THE USE AND MISUSE OF RECONSTRUCTION FUNDING AFFECTS THE WAR EFFORT IN IRAQ AND AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-30]

                      EFFECTIVE COUNTERINSURGENCY:

                       HOW THE USE AND MISUSE OF

                     RECONSTRUCTION FUNDING AFFECTS

                 THE WAR EFFORT IN IRAQ AND AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 25, 2009


                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  U.S. GOVERNMENT PRINTING OFFICE
52-944                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant
















                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, March 25, 2009, Effective Counterinsurgency: How the 
  Use and Misuse of Reconstruction Funding Affects the War Effort 
  in Iraq and Afghanistan........................................     1

Appendix:

Wednesday, March 25, 2009........................................    33
                              ----------                              

                       WEDNESDAY, MARCH 25, 2009
 EFFECTIVE COUNTERINSURGENCY: HOW THE USE AND MISUSE OF RECONSTRUCTION 
         FUNDING AFFECTS THE WAR EFFORT IN IRAQ AND AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Bowen, Stuart W., Jr., Special Inspector General for Iraq 
  Reconstruction.................................................     3
Fields, Maj. Gen. Arnold, USMC (ret.), Special Inspector General 
  for Afghanistan Reconstruction.................................     5
Williams-Bridgers, Jacquelyn L., Managing Director, International 
  Affairs and Trade, U.S. Government Accountability Office.......     7

                                APPENDIX

Prepared Statements:

    Bowen, Stuart W., Jr.........................................    37
    Fields, Maj. Gen. Arnold.....................................    43
    Williams-Bridgers, Jacquelyn L...............................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
 EFFECTIVE COUNTERINSURGENCY: HOW THE USE AND MISUSE OF RECONSTRUCTION 
         FUNDING AFFECTS THE WAR EFFORT IN IRAQ AND AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 25, 2009.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today, the House Armed Services 
Committee meets to take testimony on Effective 
Counterinsurgency: How the Use and Misuse of Reconstruction 
Funding Affects the War Effort in Iraq and Afghanistan.
    We are very fortunate to have three extremely qualified 
witnesses to help us here today: Stuart Bowen, Special 
Inspector General for Iraq Reconstruction (SIGIR); Major 
General Arnold Fields, the Special Inspector General for 
Afghanistan Reconstruction (SIGAR); and Jacqueline Williams-
Bridgers, Managing Director for International Affairs and Trade 
at the Government Accountability Office, the GAO.
    Recently, the United States has engaged in two 
counterinsurgency operations, Iraq and Afghanistan. And while 
the campaign in Iraq is winding down somewhat, we are expecting 
a new strategy that will reinvigorate our efforts in 
Afghanistan to be announced in the next few days. We, of 
course, all look forward to that. This makes today's effort so 
very, very important.
    Both SIGIR and GAO have written and testified repeatedly 
about the problems in the U.S. efforts to rebuild Iraq. Among 
many other problems, at some point during the war in Iraq, the 
reconstruction effort suffered from poor financial controls, 
poor interagency coordination, which we are very concerned 
about in this committee, and a lack of strategic planning, 
which we have all been concerned about for some time.
    While to some extent these problems were addressed over 
time in Iraq, we must ensure that the lessons that we learned 
there, at great expense, are not lost. So often we do not learn 
the lessons of the past, and we, on this committee, are very 
familiar with that.
    To help ensure that we do not experience the same problems 
in Afghanistan that we did in Iraq, this committee, as part of 
the Fiscal Year 2008 National Defense Authorization Act (NDAA), 
created the position of the Special Inspector General for 
Afghanistan Reconstruction, or SIGAR. As the President will 
announce the new strategy shortly, it is our hope that SIGAR 
will help to take a critical look at the efforts in Afghanistan 
to ensure they are properly coordinated.
    At the same time, many people have heard the concern that, 
in Afghanistan, we are faced with a proliferation of auditors 
that we did not face in Iraq when the SIGIR began its important 
work. I am hopeful that our witnesses will take the time to 
address the difficult trade-offs between full accountability on 
the one hand, and the flexibility needed in a war zone, and the 
coordination that we need between auditors, on the one hand, to 
ensure that we do not stifle creativity and the work product.
    I would also like to note that many of the lessons learned 
in Iraq, as pointed out by the GAO and then SIGIR, may be 
applicable to the future as we consider ways to reform the 
interagency system. We reiterate the problems with the 
interagency system. We have done something on that in last 
year's bill. We hope to continue on work on that.
    It is my hope that the testimony and discussion here today 
will help us understand these issues and problems and potential 
solutions. I appreciate the witnesses that we have. We realize 
you are the best at what you do, and we appreciate it very, 
very much.
    With that, John McHugh, Ranking Member, please.

 STATEMENT OF JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW YORK, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you, Mr. Chairman.
    And like you, Mr. Chairman, I certainly want to welcome our 
witnesses. I think your closing comments encapsulated their 
skills and their expertise very well. And we are truly 
fortunate today to have the benefit of their testimony as we go 
forward on this very important issue.
    And let me, in that regard, Mr. Chairman, compliment you on 
holding this hearing. As you noted, sir, we hope that the 
product of today's efforts will help us as we prepare for the 
2010 budget in the wartime supplemental spending bills which 
will be before us in pretty short order.
    This committee spent a whole lot of time, rightfully so, 
and a whole lot of energy focusing on the allocation of 
reconstruction funding in both Iraq and Afghanistan. And in 
that process, we have used the good work of these fine people 
that have joined us here today, the GAO, the Inspector General 
for Iraq, and of course now the Inspector General for 
Afghanistan, as we have tried to implement their 
recommendations and their oversight findings into both our 
hearings as well as ensuing legislation.
    As you noted, Mr. Chairman, one of the direct results of 
those experiences was, indeed, our efforts back in the 2008 
Defense bill to create the Special Inspector General for Afghan 
Reconstruction, something that I think was both very wise and 
something we take great pride in.
    As we look at the work of their assembled efforts, it seems 
that one indisputable conclusion has been revealed: more work 
needs to be done. And I know that sounds like we are stating 
the obvious, but I don't think it is ever a fruitless effort to 
remind ourselves that we have much business before us.
    And although we have been at this now for nearly a decade, 
as SIGIR Bowen's testimony reveals, we have not yet 
internalized effectively the difficult lessons that are out 
there for us to embody. And frankly, I am unsure if the 
fundamental problem is that we are simply bad at doing 
contingency relief and reconstruction, or we simply lack a 
policy to institutionalize the best practices for this kind of 
work. I hope it is the latter, but that is one of the primary 
reasons, of course, we are here today.
    SIGAR and GAO's reports suggest we are too reliant on 
personalities and lack the organizational structures required 
for an expeditionary post-conflict reconstruction. They contend 
that we need to put an end to the culture of improvisation when 
managing contingency operations, exigencies of the battlefield 
notwithstanding.
    If the problem is rooted in policy, then simply we on this 
panel and in this Congress need to act. The House and the 
Senate has appropriated some $48 billion for Iraq 
reconstruction since 2003 and $32 billion for Afghanistan since 
2001, and a large slice of these funds has gone to the security 
sector.
    In Iraq, we will continue to assist that nation with their 
security forces for the foreseeable future. At the same time, 
building up the Afghan national security forces is a vital 
element of our counterinsurgency there. In other words, this 
work is essential, and we cannot afford any longer the 
inefficiencies and waste that has riddled our past efforts. And 
toward that end, I am certainly interested in hearing from 
Inspector General (IG) Fields and how SIGAR has used the Hard 
Lessons from Iraq and applied them to Afghanistan. Where these 
lessons don't apply, I know we would all be interested in 
learning why and what steps we may be able to proactively take 
to avoid any pitfalls in the path ahead.
    So a lot of interesting work behind us. A lot of 
interesting discussion I hope today. And again, I thank all 
three of you for being here.
    And with a final word of appreciation to you, Mr. Chairman, 
I yield back the balance of my time.
    The Chairman. Well, I thank the gentleman. We are off to an 
excellent start.
    We, again, are very pleased with the panel, and we look 
forward to your testimony.
    And without objection, each of your testimony will be 
entered in the record.
    Stuart Bowen, you are on.

 STATEMENT OF STUART W. BOWEN, JR., SPECIAL INSPECTOR GENERAL 
                    FOR IRAQ RECONSTRUCTION

    Mr. Bowen. Thank you, Chairman Skelton, Ranking Member 
McHugh, members of the committee, it is my pleasure to address 
the issue before the committee today, the use of reconstruction 
funds in contingency operations, in particular in Iraq, an 
issue I have been reporting on for over five years now.
    Let me start by putting my comments in context. Six years 
ago this day, the United States forces were engaged in the 
bloodiest fire fight of the invasion, in the Euphrates Valley 
around Najaf. Baghdad would fall two weeks later. Five years 
ago, I had just returned from my second trip to Iraq, having 
seen a deteriorating security situation and beginning the 
process of issuing my first quarterly report on a 
reconstruction program that had expanded tenfold from what had 
been planned to $20 billion, now $50 billion.
    One year ago yesterday, a rocket attack on the Green Zone 
took the life of one of my auditors who was working on an audit 
of a significant contract regarding that $50 billion. That 
context sets an important tone for analyzing what happened in 
Iraq, and that is, security drove up the cost of everything.
    I just returned from my 22nd trip to Iraq, and the security 
situation is much better there today than it was a year ago, 
much better than three years ago and five years ago. It still 
is not a safe place. It is still a dangerous place to work. I 
traveled out to Anbar to visit a project and to get their 
required significant security detail and major planning. But it 
is much safer today than it was.
    There is another stark reality that has caused the misuse 
of U.S. taxpayer money in the Iraq reconstruction program, and 
it echos the point, Mr. Chairman, that you were making, and 
Ranking Member McHugh, about the need to learn our lessons 
regarding these contingency operations, and that is, the United 
States Government does not have an established framework for 
the management and execution of contingency, relief, and 
reconstruction operations.
    I met with General Odierno, senior leadership in the 
embassy, and senior leadership in Multi-National Force--Iraq 
(MNF-I) during this latest trip. And they acknowledged to me, 
as virtually all the leadership did in the course of producing 
Hard Lessons: Our Study of Iraq, that reform is necessary to 
improve the management of contingency relief and reconstruction 
operations.
    Hard Lessons addresses a number of points. It tells the 
story of a reconstruction program that was very narrow, that 
sought to do two things at the outset: namely, avert 
humanitarian disaster and repair war damage. That quickly 
expanded after the invasion concluded to a program that sought 
to touch every aspect of Iraqi society, and then expanded 
thereafter through the Iraq Security Forces Fund (ISFF) to 
rebuild the Iraqi Army and the police.
    Fifty billion dollars later, what have we achieved? As Hard 
Lessons points out, on the infrastructure front, the United 
States program did not achieve the goals that it set for itself 
back in 2003. On the security side, after significant 
investment by the Congress, over $18 billion in the Iraqi 
Security Forces Fund, another $5 billion from other sources, 
the Iraqi Army is now a fairly capable force that has control 
of most of the provinces across the country and, by the end of 
May, will have control of all of them, according to the current 
schedule.
    Those are the realities of the challenges of the $50 
billion, and the lessons learned are significant. Chief among 
them, as I said, is the need to develop unity of command for 
the management of contingency relief and reconstruction 
operations, something that is not extant within our current 
system. The Department of Defense (DOD), the Department of 
State (State), the United States Agency for International 
Development (USAID) all agree that there has been weak 
communication regarding the execution of the reconstruction 
effort, and that there needs to be reform. And I think that 
that reform should certainly come from the Congress, and there 
are several ways that it could go.
    There are other important reforms that need to be carried 
out, including the development of wartime contracting rules 
that are more efficient to avoid waste; the need to emphasize 
the integration and development of soft programs for the 
projection of soft power, especially relevant in Afghanistan 
today; programs that are geared well to indigenous needs, which 
was not the case in Iraq. The program, as we have seen in our 
asset transfer audits, we haven't built exactly what the Iraqis 
wanted. And their complaints to us, in the course of our audits 
and in the course of our lessons learned reports, have been 
that it's not what they wanted; we didn't build to their need. 
Building to scale, especially in Afghanistan as we move 
forward, is essential, something that they can manage, that 
they have capacity to do.
    And finally, the U.S. Government needs to develop human 
resources, management systems, information technology (IT) 
systems, other systems for executing such operations.
    Let me close by saying that I met yesterday with a chief 
executive officer (CEO) of a contractor who did significant 
electricity work in Iraq in 2003, 2004, part of the Task Force 
to Restore Iraqi Electricity. He is now working in Afghanistan. 
He said, Mr. Bowen, I have read every one of your reports, and 
you are right, there was significant waste; that these large 
contractors, through subcontractors, caused the loss of 
significant taxpayer dollars.
    But then he said, I want to tell you that the same thing is 
going on in Afghanistan now, that there is significant waste 
and that the lessons learned from Iraq are waiting to be 
applied effectively in Afghanistan.
    With that, Mr. Chairman, thank you for your time. And I 
look forward to your questions.
    [The prepared statement of Mr. Bowen can be found in the 
Appendix on page 37.]
    The Chairman. Thank you very much. We are certainly, of 
course, so sorry about the loss of your auditor in Iraq. That 
is very, very, very sad.
    Mr. Bowen. Thank you, sir.
    The Chairman. The Inspector General for Afghanistan now, 
General Fields.

  STATEMENT OF MAJ. GEN. ARNOLD FIELDS, USMC (RET.), SPECIAL 
        INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

    General Fields. Mr. Chairman, Ranking Member McHugh, and 
members of the committee, I am pleased to be here for this 
hearing on reconstruction in Iraq and Afghanistan. This is a 
welcomed opportunity, our first since I was sworn in last 
summer, to discuss the establishment of the Office of the 
Special Inspector General for Afghanistan Reconstruction, or 
SIGAR for short, and, as well, our plans for oversight of 
reconstruction programs in Afghanistan as mandated by the 
Congress.
    The nature and scope of U.S. reconstruction efforts in 
Afghanistan and Iraq have many similarities. However, as 
members of this committee are aware, conditions in Afghanistan, 
from the standpoint of economic, geographic, demographic, and 
political, offer unique challenges to the feasibility and 
sustainability of reconstruction efforts.
    Afghanistan remains a poor and undeveloped country after 
nearly three decades of warfare and economic neglect. My 
colleague, Stuart Bowen, recently identified lessons learned 
from the U.S. reconstruction effort in Iraq. SIGAR will be 
assessing how U.S. agencies are considering these lessons in 
planning and implementing programs in Afghanistan.
    In my written statement, submitted for the record, I 
outline SIGAR's priorities in several areas, using some of the 
lessons learned as a framework for my discussion. Now I want 
to, one, highlight actions we have taken to begin providing 
oversight; and two, discuss one of the lessons learned in Iraq 
and how we will examine its applicability in Afghanistan.
    Oversight is clearly an important and necessary function to 
ensure accountability over the use of U.S. taxpayer dollars. I 
want to mention four things we have done.
    First, we have hired and continue to hire highly qualified 
people willing to work in Afghanistan. Today, we have 41 people 
as part of our team. As additional funding becomes available, 
SIGAR plans to hire additional personnel and increase our 
presence in Afghanistan.
    Second, we are developing strategic plans to direct our 
work. We have commenced several audits, delivered two quarterly 
reports to the Congress, and established a hotline for 
reporting complaints. Over the next several months, we 
anticipate completing several reports containing analyses, 
observations, conclusions, and recommendations.
    Third, we have established an office in our embassy in 
Kabul, Afghanistan, and we have secured space for personnel in 
three other locations in Afghanistan. We feel this is important 
to our work.
    Fourth, we are working closely with our oversight 
colleagues to share our plans and coordinate, as required, in 
our authorizing legislation.
    Now I would like to discuss one of the lessons learned in 
Iraq and how we will examine it in Afghanistan.
    The United States Government's capacity to manage the 
contractors carrying out reconstruction work is an important 
issue. SIGAR plans to conduct a number of reviews on the use, 
oversight, and performance of contractors. And over time, we 
expect this work will lead to improved contracting and contract 
management processes. We have started an audit of U.S. 
agencies' management of reconstruction funds, projects, and 
contracts.
    SIGAR is one of several audit entities responsible for 
oversight of contracts in Afghanistan. SIGAR plans to prepare 
the required comprehensive plan for audits of security 
contracts and other contracts. And this plan will be 
coordinated with other oversight entities, as appropriate.
    In closing, SIGAR takes its responsibilities very 
seriously. We are unique in our position in as much as we can 
examine reconstruction programs and activities in Afghanistan 
across all U.S. agencies.
    I appreciate the support the Congress continues to provide 
our office. And I certainly look forward answering your 
questions. Thank you.
    [The prepared statement of General Fields can be found in 
the Appendix on page 43.]
    Mr. Ortiz [presiding]. Thank you, General.

STATEMENT OF JACQUELYN L. WILLIAMS-BRIDGERS, MANAGING DIRECTOR, 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Williams-Bridgers. I thank you very much. GAO 
appreciates the opportunity to be here today to participate in 
this very important hearing.
    The United States faces unique challenges in Iraq and 
Afghanistan. However, GAO's work has shown that success in both 
countries will depend on addressing common challenges. There 
are three: The first challenge is establishing and maintaining 
a basic level of security; second is building a sustainable 
economic foundation in each country; and third, holding the 
governments accountable to their political and economic 
commitments while building their capacity. These challenges 
underscore the need for the U.S. to chart comprehensive 
strategies to lay the groundwork for joint operational plans.
    I would like to first address the challenges the U.S. faces 
in Iraq. In Iraq, many U.S.-funded reconstruction efforts took 
place in an environment of deteriorating security. Oil, 
electricity, and water projects were subject to insurgent 
attacks, which raised cost, caused delays, changed scopes, and 
denied central services to the Iraqi people. Although violence 
has declined in Iraq, security conditions remain quite fragile.
    Iraq's oil resources provide a foundation for economic 
growth. With revenues from the world's third largest oil 
reserve, Iraq has accumulated a $47 billion surplus. However, 
Iraq's investment in its infrastructure has been limited, 
resulting in slower-than-anticipated reconstruction in that 
country.
    The United States has held Iraq to its commitments to 
address political grievances among Sunni, Shi'a, and Kurd 
populations. It has passed some key legislative reforms and 
held several elections. However, the Iraqi Government still 
needs to enact other laws to define how the country's oil and 
gas revenues will be shared and how Kirkuk will be governed.
    Finally, the Iraqi government's limited capacity to deliver 
services to its people weakens its legitimacy. Iraq's 
ministries lack personnel who can formulate budgets and procure 
goods and services.
    Also, the Iraq Security Forces (ISF) have demonstrated 
limited capacity to provide security without coalition support.
    Now let me turn to the challenges the U.S. faces in 
Afghanistan.
    A lack of security in Afghanistan has put U.S.-funded 
development projects at risk. Concerns over security have 
delayed projects, increased cost, and, again, changed the scope 
and nature of the projects. Building the National Security 
Forces (ANSF) is central to the U.S. effort to establish 
security, but progress there has been slow.
    The drug trade in Afghanistan is a significant challenge to 
security and has required a multifaceted U.S. counternarcotics 
program. Profits from opium production help fund the Taliban 
and other insurgent groups, and it contributes to the 
government's instability. Recent decisions, however, by DOD to 
change its rules of engagement in countering narcotics are a 
positive move.
    As one of the world's poorest countries, Afghanistan is 
dependent on foreign aid now and for the foreseeable future. 
Afghanistan's National Development Strategy (ANDS), established 
with U.S. and international support, is significantly 
underfunded and may not be viable given the current levels of 
assistance. The Afghanistan Government's lack of capacity also 
hinders the country's ability to meet its economic and 
development goals. The ministries do not have the expertise to 
maintain U.S. and other donor-financed infrastructure and 
capital investments, nor can it deliver the essential services 
to its people.
    I would like to turn now to the need for effective 
strategies in Iraq and Afghanistan.
    As the Administration defines its strategy in Iraq and 
develops a new one for Afghanistan, it should consider the 
characteristics of an effective national strategy. Both 
strategies should clearly define the objectives for U.S. 
efforts, identify and mitigate any risk, estimate future costs, 
and coordinate all U.S. agency, international, and host-country 
efforts. For example, the U.S. strategy in Iraq should identify 
the security conditions that the United States expects to 
achieve to ensure that troops can be withdrawn responsibly. The 
strategy should also consider how the U.S. would respond if 
these conditions are not achieved.
    The new U.S. strategy for Afghanistan should estimate what 
financial commitments the U.S. is willing to make to contribute 
to the Afghan National Development Strategy goals. It should 
also assess the risk to U.S.-funded investments if Afghanistan 
does not obtain the resources or develop the technical capacity 
to maintain them. And it should, importantly, address the 
external risk of regional influences, such as Pakistan.
    This concludes my statement. I would be glad to take any 
questions that the committee may have.
    [The prepared statement of Ms. Williams-Bridgers can be 
found in the Appendix on page 51.]
    Mr. Ortiz. Thank you so much.
    I know that all of you at some time have criticized efforts 
in Iraq and Afghanistan for a lack of interagency planning for 
reconstruction. Can you elaborate for us what you would like to 
see in such planning? What agencies and actors should be 
involved? And what, if any, reforms are needed to ensure for 
this to happen? Maybe each of you can elaborate a little bit on 
that.
    Mr. Bowen. Yes, Mr. Ortiz, I will start. I think there does 
need to be reform to promote improved interagency integration, 
not just coordination, of contingency relief and reconstruction 
operations.
    The chief players are the Department of Defense, Department 
of State, and the U.S. Agency for International Development. 
Other agencies play important but less significant roles.
    The key is to ensure that there is, before the balloon goes 
up, so to speak, before we engage in a contingency, a well-
practiced, well-exercised, well-resourced, well-developed 
strategy for managing a contingency however it may unfold. And 
that has not been the case.
    As Hard Lessons points out, the U.S. approach to 
contingencies since World War II has been chiefly ad hoc, and, 
indeed, Iraq was a sort of ad hocricy, inventing temporary 
organizations, like the Coalition Provisional Authority, like 
the Program Management Office, like the Iraq Reconstruction 
Management Office, none of which exists now but all of which 
had charge of billions and billions of U.S. dollars and tried 
to spend it as quickly as they could within the framework of 
their existence. That is no way to run a contingency operation.
    There have been attempts, steps forward, significant steps 
forward, embodied first in NSPD-44 over three years ago that 
identified the importance of a Civilian Reserve Corps, but 
these solutions, to a certain extent, have been balkanizing 
themselves. The problem is one of balkanization, but the 
solutions haven't led to integration.
    The DOD has moved forward with 3000.05, and Stability 
Operations is a big part of DOD's work. CJ-9 is an 
extraordinarily significant new creation. But over on the State 
side, there is the Reconstruction, Stabilization, Civilian 
Management Act, which was Title XVI of the NDAA last year, 
which puts huge responsibility in the Department of State for 
managing this same issue. They need to be integrated. And I 
think that that requires significant legislative analysis and 
new policy to bring the agencies responsible together.
    Mr. Ortiz. Anybody else that would like to respond?
    General Fields. I would just like to add to what Mr. Bowen 
has said, first off, concurring with his commentary on the need 
for the interagency community to coordinate with each other. We 
find that in our early, not so much assessment, but 
observations regarding Afghanistan, that this is an issue in 
Afghanistan as well. But Afghanistan, we also feel, I will not 
say is more complicated than Iraq, but there are some 
uniquenesses associated with Afghanistan, particularly that 
which involves the international community. So as, on the one 
hand, we certainly support the need for interagency 
coordination and cooperation; there is also the need for 
international coordination and cooperation.
    As this committee knows, the United States has invested 
already $32 billion in the reconstruction of Afghanistan. This 
is in addition to an overall $56 billion that the international 
community has invested in Afghanistan. The complications of 
Afghanistan, the period of time within which we would like to 
bring closure to this event, require the cooperation and 
coordination within the international community. We would like 
to see more of that.
    And I would agree that, to the extent possible, before we 
engage in such matters, we should have reasonable, long-term 
agreement from the international community if they are to bring 
their wherewithal to bear upon a contingency as complicated as 
that we have undertaken in Afghanistan.
    Thank you.
    The Chairman [presiding]. Thank you, General.
    Ms. Williams-Bridgers, did you have a comment on this?
    Ms. Williams-Bridgers. Yes, just one brief addition. I 
concur with my colleagues' conclusions that there is a need for 
a coordinated interagency plan to be articulated. We believe, 
however, that some years ago, the National Security Council 
(NSC) did establish an interagency management system for 
planning and executing contingency operations under the Bush 
Administration.
    In November of 2007, GAO published a review looking at 
national security reforms within the context of many 
independent commissions' recommendations calling for massive 
reorganization of government agencies and new structures to 
support security operations overseas. And what we said was that 
that national security system that had never been tested needed 
to be tested in a real-world situation. It has not. It 
certainly would have some value in looking at whether or not 
that particular system, developed for contingency operations as 
we are now facing, could be employed.
    The Chairman. Thank you very much.
    After I call on Mr. McHugh, we are under the five-minute 
rule. Mr. Ortiz asked the one question I wished to ask, so we 
will go to Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    Let me start by noting, in my opening statement, I was 
remiss. I did not extend my admiration and appreciation to the 
brave men and women that work for you good folks.
    Inspector Bowen mentioned the loss of life, but while those 
of us in this town perhaps too often think of these kinds of 
activities as folks just strolling around with pencils and pads 
and kind of creeping around corners and wearing green 
eyeshades, this has been, in the Iraqi experience and Afghan 
experience, at least in its early stages, a very dangerous 
undertaking.
    Mr. Bowen, you were in my office a few weeks ago, and you 
specifically spoke of the casualties that were suffered in your 
ranks. I wonder, just for the record, if you could give us 
those figures here today.
    Mr. Bowen. Yes, as I said a year ago yesterday, one of my 
auditors, Paul Converse from Corvallis, Oregon, was killed in 
his trailer when a rocket impacted next to it. In 2007, I had 
five employees in Iraq wounded by hostile fire.
    I am pleased to say that the move to the new embassy 
compound is a move to a much more secure environment, and 
coincident with that has come a very, very significant 
reduction in the threats around the embassy. The last two 
trips, I haven't heard any evidence of incoming fire.
    Mr. McHugh. Well, let's hope that continues. But 
nevertheless, your good folks are at risk many, many times. And 
we deeply appreciate their service as well was the point of 
this discussion.
    Mr. Bowen. Thank you, Mr. McHugh.
    Mr. McHugh. During the testimony we just heard, there was 
mention on several occasions about the new Afghan strategy 
that, as the chairman noted in his opening remarks, we would 
expect to be released perhaps as early as this week. And Ms. 
Williams-Bridgers, you mentioned as well that, in your 
estimation, this new Afghan strategy ought to estimate the 
financial commitments that the United States is willing to make 
and understand those parameters going in.
    Let me ask a broader question just for curiosity's sake. 
Have any of your offices been consulted by the Administration 
or the Pentagon as this new strategy has been developed? Has 
there been any discussion that you are aware of to try to 
integrate some of these lessons we have learned into the new 
strategy?
    Ms. Williams-Bridgers. Mr. McHugh, we have been asking to 
see the strategy as it is being developed because we do believe 
that, based on much of the work that we have done about what is 
necessary to be included in a strategy and what we have 
identified as shortcomings in our existing operations, that 
could be used. We have not yet been provided any drafts of that 
strategy.
    What I would also say, though, is, in addition to a 
national strategy that would reflect on the skills and the 
expertise of the various agencies, what we would like to see is 
that that strategy would be used as a basis for then developing 
joint operational plans. That currently is absent. We have seen 
no evidence of a plan that would articulate what the specific 
roles and responsibilities and an integration of those roles 
and responsibilities by the various agencies. We know that a 
joint operational plan, as called for in military doctrine, 
would provide a good foundation then for developing sector-
level plans, which each agency would then be responsible for.
    So we think there is an order of business that needs to 
occur in development of better thinking about how to best use 
our resources, anticipate the cost, and plan for any mitigating 
strategies should the overall goals articulated in the national 
strategy not be achieved.
    Mr. McHugh. I appreciate that.
    General Fields, any opportunity for input from the SIGAR 
side of the equation?
    General Fields. Thank you, sir. In direct answer to your 
question, we have not been specifically asked to advise on the 
new strategy that is eventually going to be formally announced. 
However, we have two reports that have been made available by 
way of having posted them on our Web. In our most recent 
report, and specifically in the letter that I prefaced a report 
by, sent to the Congress, we did identify some issues that we 
would hope that the Administration would take into 
consideration as they structure this new strategy.
    One is a resounding or an echoing theme each time I have 
visited Afghanistan; one is the lack of participation by the 
very country in the reconstruction effort that we are trying to 
advance in the 21st century. The bottom line is the senior 
leaders of Afghanistan essentially complained to me about the 
fact that they are not being involved enough, or at least not 
to the capability that they feel they have, in the 
reconstruction effort, in the decision process, and so forth. I 
would hope that this is a measure that the Administration would 
take under consideration as it puts together this strategy.
    More specifically, the government and the industries, if 
you will, of Afghanistan, would like to partake more in the 
contracting effort. This is something that I noted in Mr. 
Bowen's Hard Lessons that this, too, was an issue in Iraq. And 
it is one that we have yet to get completely correct as we 
address matters in Afghanistan.
    One of our missions, and in fact our principal mission, is 
to conduct oversight. And we will look into matters like this 
where, subsequent to the strategy, and even as we continue the 
work that we have been carrying on for the past few months, we 
will look into the extent to which there are opportunities for 
greater participation, for example, by the government and 
various entities of Afghanistan in their own reconstruction 
effort.
    Thank you.
    Mr. McHugh. Mr. Bowen.
    Mr. Bowen. Yes, Ranking Member McHugh. We did brief the 
embassy staff on lessons learned from Iraq and how they apply 
in Afghanistan, as well as President Obama's Deputy Chief of 
Staff.
    Mr. McHugh. Great, well, I would simply suggest, as both 
the chairman and I mentioned in our opening comments, the main 
objective here is not to continue making the mistakes of the 
past. And to whatever extent you may or may not have been 
consulted, I was honored to get a call this week from the 
Secretary of Defense, and he assured me this would be a 
consultative process.
    So I would hope, Mr. Chairman, we could use some of the 
findings of this hearing and our past hearings with respect to 
SIGAR and SIGIR to help evolve the best policy forward so that 
Afghanistan becomes something of a template, not for the next 
series of mistakes but for the next series of successes.
    So, again, to all three of you, thank you for your effort.
    And I will yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Ortiz has an additional question.
    Mr. Ortiz.
    Mr. Ortiz. General Fields, in your testimony, you stated 
that the future capabilities would be determined by the funding 
received. Your office identified a $7.2 million shortfall for 
the remainder of Fiscal Year 2009. What impact does the lack of 
funds have on your organization?
    General Fields. Thank you very much, sir.
    First, we appreciate the support that the Congress has thus 
far provided to SIGAR. We appreciate the oversight legislation 
that we are mandated to carry out, and we are proceeding 
accordingly.
    The Congress has made available to us $16 million, which 
did come late into the year and late into the authorization 
that, in fact, stood up this organization called SIGAR. We have 
been using that $16 million to build our organization. We 
advanced to the Office of Management and Budget (OMB) late last 
summer, early fall, a work plan that would require $23 million 
to build our organization to a staffing of 90 personnel, with a 
principal slice thereof here in the United States, and a very 
good slice in Afghanistan. And as I said before, this is an 
important measure to have our staff located in the very 
environment in which they will carry out much of this mandate.
    So we are, yes, sir, short the $7.2 million that we need to 
flush out our work organization to the 90, to conduct the 
audits, inspections, and investigations that we need to 
conduct, and to provide our staff at several locations in 
Afghanistan, where the cost is considerably higher, to maintain 
personnel, to pay them, to protect them, to move them, than 
they are here in the United States.
    So we would certainly, sir, appreciate any support that the 
Congress might provide in helping us to obtain that additional 
funding for this year and certainly in support of our 2010 
budget that we are currently working with OMB and the 
Department of State on at this time.
    Mr. Ortiz. I would rather see that we put that money into 
your budget because I think, by doing that, hopefully we will 
be able to save money someplace else that might be misspent 
somewhere else.
    I was going to ask just one more question of Ms. Williams-
Bridgers. I know that your office has come up with some 
recommendations from GAO to DOD for them to implement certain 
suggestions. Have they done that?
    Ms. Williams-Bridgers. With regard to?
    Mr. Ortiz. How to save money. Because this is one of the 
biggest problems we have: no accountability. We have seen that 
we still have not sent the 30,000 troops that are due in 
Afghanistan. And we already see that some of the suggestions 
that have been put before, we have not learned the lessons that 
we were supposed to have learned in Iraq. And I am pretty sure 
you gave some suggestions to Department of Defense.
    Ms. Williams-Bridgers. Yes.
    Mr. Ortiz. Are they following through with some of your 
suggestions?
    Ms. Williams-Bridgers. Yes, they are, in fact. And others 
we have not seen as much progress. But let me give you some 
examples of where we are seeing some progress.
    One of the areas of highest risk of waste is in 
contracting. My colleague, Stuart Bowen, has alluded to the 
need for greater attention to contracting. Since 1992, GAO has 
identified contract management and contract oversight as a 
high-risk area. Billions of dollars have been spent over the 
years in the contracting arena. And increasingly, as we move 
toward a drawdown in Iraq, we will more than likely see an 
increase in our reliance on contractors to perform the services 
that DOD heretofore has provided.
    In the past, we have cited specific concerns and made 
recommendations to DOD to improve their overall contract 
management capabilities, specifically by articulating and 
providing it to their contract officers' guidance and policy on 
how to management contracts, how to provide oversight, how to 
ensure that there are appropriate numbers of people in the 
field to oversight the activities that are undertaken by 
contractors, to provide specifically guidance to battlefield 
commanders on what their authorities are and their 
responsibilities are for ensuring that contractors deliver the 
activities in various field locations.
    About three years ago, DOD began developing such guidance 
to improve their contract management capabilities. They still 
aren't where we believe they need to be. We are in the process 
now of reviewing use of contractors and various controls that 
DOD has since put in place. But we will continue to monitor 
that very high-risk area.
    Mr. Ortiz. Thank you very much, ma'am.
    The Chairman. The gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Mr. Chairman, I am very proud and grateful today. At this 
hearing, we have two persons of distinguished South Carolina 
heritage, Inspector General Bowen and Major General Arnold 
Fields. And I want you to know that General Fields is a role 
model for me. He has been an inspiration to the young people of 
the congressional district I represent. It would make you so 
proud. Each year we have the Hampton Watermelon Festival. And 
at the Watermelon Festival, the General comes in full dress 
Marine uniform. Despite the heat, he looks so strac. And he 
leads the singing of the Star-Spangled Banner. We could not 
have the festival if the General were not there.
    So thank you, all three of you, for being here today. I 
want you to know what a distinguished pedigree we have with our 
persons here today.
    I also am really grateful for your service in helping 
address problems in Iraq and Afghanistan. I visited Iraq nine 
times; Afghanistan seven times. I have had two sons serve in 
Iraq. My National Guard unit that I retired from served for a 
year, the 218th Brigade, in Afghanistan. I am so grateful that 
our service members have, I believe, successfully defeated the 
terrorists overseas to protect American families at home.
    General Fields, I read your testimony. And I would 
particularly like to know your view of what the local Afghan 
government officials, tribal leaders, what their opinion is of 
reconstruction efforts.
    General Fields. Thank you, sir. Thank you very much for the 
kind words. And I hope to see you at the Watermelon Festival as 
well.
    Mr. Wilson. We can't have it unless you come, so----
    General Fields. Well, Lord willing, and the creek doesn't 
rise, I will be there. Thank you, also, for your leadership.
    Sir, in my capacity as Special Inspector General, I have 
just completed my third visit to Afghanistan, from which I 
returned, actually, last Thursday. Each time I have gone to 
Afghanistan, I speak and have spoken with senior leaders, or 
leaders in general, at all levels, first, our own United States 
leaders, our ambassador, our military commanders at the Four-
Star level, and otherwise. I also meet with the government of 
Afghanistan at all levels, the ministerial level, the 
provincial level.
    Most recently, on the 17th of this month, we were 
privileged to visit with President Karzai himself. We were very 
pleased that he would receive us and openly discuss a whole 
number of issues, one of which he presented himself, and that 
is the one that is sensitive and of interest to all of us, 
corruption.
    I want to say that, in comparing lessons learned in 
Afghanistan and Iraq, I want to put up front that there is a 
common element among the lessons learned between Iraq and 
Afghanistan. The people of Iraq wanted, and to some extent 
still want, clean water, electricity, good roads, and a secure 
environment within which to live. If you ask the same question 
about needs to the Afghans, they will tell you the same thing. 
And every province I have thus far visited, I have met with 
either the governor of the province or the deputy governor of 
the province and any of his staff that he may have assembled. 
Inevitably, the top four to five issues about which they are 
concerned, water, medical, education, agriculture, and that the 
country is 80 percent agricultural, if you will. So there are 
very many similarities between Iraq and Afghanistan in that 
regard. And I presume that when I make my next trip to 
Afghanistan in just a few weeks, I will hear the same request.
    So they thank us for our contribution to Afghanistan, but 
at the same time, they help us to focus on the issues that are 
of greatest interest to them.
    Mr. Wilson. Again, thank you very much for your service.
    General Fields. Thank you, sir.
    The Chairman. Dr. Snyder, the gentleman from Arkansas.
    Mr. Snyder. Thank you, Mr. Chairman.
    I have several questions. And if you all can err on the 
side of brevity, then maybe I can get to more than one or two.
    The first question I want to ask, Mr. Bowen, is to you. 
With regard to the man that you lost a year ago, Paul Converse, 
he was a civilian employee; is that correct?
    Mr. Bowen. That is right.
    Mr. Snyder. Are you satisfied, after the year has passed 
now, that from the time of his death, that both he and his 
family received the honors and support that they should have, 
given that, it has clearly come out, we did a report on this 
committee, that we have treated civilians differently than 
military people. Are you satisfied with how he and his family 
have been supported?
    Mr. Bowen. Yes, I am. I went out and visited them for a 
day, April 4, actually, last year and took a number of honors 
to them then. And the State Department awarded Paul the Thomas 
Jefferson Star posthumously, one of their highest civilian 
awards. And he also received medals from the Defense 
Department.
    Mr. Snyder. And in terms of financial support for his 
family, if we were to visit with his family, do you think they 
are satisfied with how he was----
    Mr. Bowen. He was not married. And I visited with his 
parents, and I think they were satisfied with the support they 
were given.
    Mr. Snyder. Thank you.
    General Fields, you and Mr. Ortiz had a discussion about 
the inadequate funding. Are you in the mix for a supplemental 
request from the administration that should be coming up here 
in the next week or two or three?
    General Fields. Thank you very much, sir. We have advanced 
to the Office of Management and Budget a formal request for the 
$7.2 million that we do need.
    Mr. Snyder. Through the supplemental?
    General Fields. Yes, sir.
    Mr. Snyder. Thank you. We can watch for it.
    Any time we, or the American people, hear the word 
``auditor,'' we all get pretty apprehensive in terms of the 
tedium. We have four written reports here: your book, Hard 
Lessons Mr. Bowen, that you and your staff put out, and then we 
have your report from SIGIR, the Special Inspector General for 
Iraq Reconstruction. This is a mandated report, correct?
    Mr. Bowen. Yes, sir. It is our quarterly report.
    Mr. Snyder. And then, General Fields, this is yours here, 
the Special Inspector General for Afghanistan Reconstruction. 
And then, of course, we are all used to the reassuring blue 
color of the GAO reports. I suspect none of the members here 
have read everything that is in these reports, but I think you 
all are talking about something that is key to the national 
security of the country for the next couple, three decades, 
which is how to--you describe it, Mr. Bowen, the core problem 
is, how do we get at this issue of redevelopment?
    At the end of this, on page 332 of your Hard Lessons book, 
you say, ``An emerging lesson from Iraq is that when violence 
is pervasive, soft programs like those orchestrated by USAID 
and provincial reconstruction teams are especially important in 
advancing U.S. goals.''
    I note--and it may just have been in a summary statement, 
the reason why it is not there--you don't mention the CERP 
funds, the Commanders Emergency Reconstruction Program. While 
there has probably been mission creep in the use of those 
funds, I think most of us think that, for the most part, a lot 
of that money was well spent. Do you agree with that, that that 
is, in fact, probably should be considered more of a 
counterinsurgency fund than a reconstruction fund? Or how do 
the CERP funds fit into your overall evaluation?
    Mr. Bowen. They play a very important role, and they raise 
an important issue. First, they are covered in chapter 26, it 
is, ``The rise of CERP.'' And I think that is a good way to 
describe how CERP evolved. It was used, initially, seeds funds, 
the money that troops found on the ground to do quick projects. 
Then Congress began funding it in 2005 with its own 
appropriation. And $3.5 billion later and five SIGIR audits 
later, the story is that the program has achieved many 
important goals in Iraq.
    The challenges, as we have documented, are that, early on, 
there weren't good controls in place. The training wasn't 
there. Now ``Money As a Weapons System'' is standard reading 
for every person, every commander deploying to Iraq. And the 
training on contracting and the support for it within the 
brigades is significant. The Department of Defense has taken 
this on and I think has vastly improved what we initially 
looked at.
    The challenge, though, as you are implying, is, how does 
that integrate in the contingency relief and reconstruction 
environment with the expenditure by USAID and Department of 
State of economic support funds, which accomplish similar small 
projects? And I ran into it last November in Hillah, when the 
Provincial Reconstruction Team (PRT) director said, I wish I 
had known about this CERP project, a courthouse that was being 
built that didn't get finished because the Iraqis are asking me 
to finish it. And that was sort of an on-the-ground, eye-
opening revelation about the difficulties in different 
departments managing different funding streams, pursuing 
similar reconstruction goals. It is not so much a criticism of 
CERP; it is another argument for the need for reforming the 
U.S. approach to managing contingency operations.
    Mr. Snyder. Thank you.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Wittman, Mr. Bowen, let me ask you, in 
light of the fact that you had five of your folks injured a 
year ago and that you just lost one just a week or so ago and 
reflecting on your book, I think it is on page 331, you state 
that security is necessary for large-scale reconstruction.
    The Chairman. How do we judge when there is enough 
security? Can you always afford to wait before what you think 
is sufficient security before beginning reconstruction? Tell us 
about this whole effort.
    Mr. Bowen. It is an excellent point, Mr. Chairman.
    The Chairman. It is a bothersome one.
    Mr. Bowen. You are absolutely right. It is not an 
absolutist measure. The frank reality is that Copenhagen 
Contractors (CPH) pushed forward an enormous infrastructure 
program building large power plants and wanted to build five 
$200 million water-treatment facilities as the countryside 
exploded in a civil war.
    Now, as was ultimately realized in 2007, an effective 
counterinsurgency strategy scales its reconstruction plan to 
fit the environment that it faces. Clear, hold, and build was 
sort of a precursor, excuse me, to what sort of became the 
counterinsurgency strategy. There wasn't enough of build in 
2006 as part of that, and part of that was that the civil war 
that was unfolding was really too much for any reconstruction 
really to move forward.
    So the challenge is that security is a prerequisite to the 
success of long-term development and larger-scale 
reconstruction, but as counterinsurgency doctrine explicates 
that right alongside military power must come the projection of 
soft power that is thoughtfully and strategically and 
tactically targeted to the countryside and the difficulty 
therein.
    The Chairman. I thank the gentleman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman, members of the panel. 
Thank you so much for joining us today. We appreciate you 
taking the time to coming and enlightening us about the issues 
in Iraq and Afghanistan.
    Ms. Williams-Bridgers, just a question. The GAO studied the 
efforts to build security forces in both Iraq and Afghanistan 
and has specifically pointed to a lack of mentors and equipment 
in Afghanistan. I was wondering if you could enlighten us about 
those shortages and give us a little bit of the details about 
what those shortages would mean.
    Ms. Williams-Bridgers. I would be glad to, Mr. Wittman. 
Thank you very much for the question.
    DOD has said they are critically short of the mentors and 
trainers that they need to build the capacity of the Afghan 
National Police (ANP) as well as the Afghan National Army 
(ANA).
    With regard to the Afghan National Army, they said that 
they had about one-half of the mentors that they need in order 
to effectively train the Army personnel.
    And with regard to the police, DOD has reported that they 
have about one-third of the number of trainers that they need 
to effectively train the police.
    That said, we have noted some progress in the overall 
capacity-building efforts of both the police and the Afghan 
National Army, but it is the police that the DOD reports as 
being in critical need of additional attention, given that 
about 34 units are now considered somewhat capable, either 
fully capable or capable with coalition support of operating 
there in Afghanistan.
    With regard to the Afghan National Army, it is about 44 
units.
    This represents a discernible increase in the capabilities 
of both of those security forces.
    Mr. Wittman. You speak of that increased capacity and 
capability. It still seems, though, to be lacking in some 
areas. Can you tell us, how do you see that as affecting the 
counterinsurgency fight there, and where do you think we would 
need to be to be totally effective in our counterinsurgency 
effort there?
    Ms. Williams-Bridgers. I think it is totally critical to 
the counterinsurgency efforts, and it speaks well of Mr. Bowen 
about what level of security is good enough, and it also speaks 
to what we have all alluded to earlier as the need for 
strategic planning and operational planning that speaks to what 
are the conditions that we expect to see in terms of the 
capacity of the police to step forward so that we can then 
begin this responsible withdrawal. I don't have the exact 
number. That is something that we would like to see articulated 
in a strategy. What are the conditions in terms of the level of 
security that we expect to see? What are the conditions in 
terms of the level of capacity that we would expect to see? And 
if we cannot achieve either of those conditions, what, then, is 
our next step; what then is our alternative strategy?
    Mr. Wittman. Thank you.
    I want to ask all members of the panel, in the context of 
that answer, what measures do you think Congress can take along 
those lines of both the capacity and capability efforts there 
and also the counterinsurgency efforts there? What efforts do 
you think Congress would need to take to address those issues?
    Ms. Williams-Bridgers. May I begin quite directly? I think 
the Congress needs to have strategic plans, clearly articulated 
roles responsibilities. What are the conditions that you expect 
to see? What are the metrics that are expected? What are the 
cost requirements, and as importantly in the case of 
Afghanistan, because we are the principal contributor to goals 
that are established in the Afghan National Development 
Strategy, goals which clearly prioritize infrastructure first, 
security second and at a huge cost.
    The goals in the outyears of what is identified in the 
Afghan National Security Strategy anticipate an $18 billion 
shortfall in the amount of available funding from all sources, 
the international community, mostly foreign aid. We know that 
Afghanistan doesn't have its own resources, and in the security 
sector, it is a key area of the shortfall.
    I don't have the number readily available, but I can 
provide that to you, but security is one of those areas that is 
going to suffer the greatest amount of revenue shortfall in 
terms of achieving the goals that are clearly now established, 
at least in the existing Afghan National Development Strategy.
    But I want to add, we have not seen a U.S. strategy, the 
complementary strategy, for what we anticipate doing, given 
this national government strategy.
    General Fields. Thank you, sir.
    I concur with my colleague, and I would add that one of the 
measures that the Congress can take, and, in fact, in my case, 
and I will say our cases, you have taken, you have established 
oversight entities that are independent, that report directly 
to the Congress, and can advise by way of various mechanisms 
those in senior positions capable of making pivotal decisions 
when it comes to the reconstruction of any entity, in my 
specific case Afghanistan.
    I want to cite and add additionally to what Jackie has said 
regarding what I believe to be the report surfacing on the 
issue of weapons accountability and matters like that. I have 
read that report, and we are looking into matters associated 
with this particular issue, and I might add that the Department 
of Defense inspector general is already looking into that 
matter.
    But I want to specifically say that we, first off, need to 
be appropriately funded, and then where the gaps exist, then we 
need to fill the gaps.
    I noted in the GAO report that in terms of training, since 
this is a fund that falls under my charge--in terms of 
training, only 68 percent of the trainers, in reference to the 
Afghanistan National Security Forces (ANSF), are available to 
carry out their work. In addition to that, only 50 percent of 
the mentors are available.
    During my recent visit, having heard and read the report 
regarding the weapons issue, I discussed this matter with the 
senior leaders in Afghanistan, and they reiterated some of 
these matters that may have contributed to what is believed to 
be either unaccounted for or missing weapons at this point in 
time.
    Your oversight goal collectively, and, in my case, 
Afghanistan, is to help uncover matters like this, report them 
in a timely way to the Congress, and respectfully ask the 
Congress to act accordingly. Thank you.
    The Chairman. Thank you.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Part of this is going to be personal testimony, but I will 
start by saying I really appreciate what you are doing. It is 
critically important to our ability as a Nation to deal with 
issues like this in the future.
    I have made some 15 trips to Afghanistan and Iraq. My first 
was with Ike Skelton. He was then Ranking Member. He is now 
Chairman. We were briefed by Bremer and Sanchez and their team 
sitting across the table in the Green Zone, and I had decided, 
as a new Member of Congress I was just going to pretty much 
shut up and listen. And I pretty much stuck to that the first 
two days of the trip until we were given a description of how 
the $18.4 billion was going to be spent, and I couldn't resist 
raising my hand and asking whether or not there was any 
contingency for security issues. And the response--just to show 
how naive we were, the response was, you cannot plan for that. 
And my rejoinder was, you may not be able to plan for it, but 
you can count on it. That is what is going to happen. You are 
not going to be able to spend that money the way you proposed.
    My impression is that we grossly underused and did not give 
appropriate authority to the Corps of Engineers, and that we 
would be far wiser, with regard to any large projects, to 
forget about contractors for the most part and let the Corps 
handle this directly. They are actually trained to deal with 
security issues at the same time that they do construction.
    And the CERP funds are terribly important to effective 
counterinsurgencies. I am really pleased about that. I am 
pleased there will be a institutionalization of that.
    Vic Snyder and I had to send a letter to the Secretary, 
when there was a gap in the CERP funds, and the commanders in 
Iraq were crying for those CERP funds. It meant lives from 
their perspective. Couldn't get it, but we had the $18.4 
billion sitting over there that we couldn't spend because we 
weren't competent to do that. So we had the money over there, 
and we couldn't provide the CERP funds. We were really 
incompetent.
    I would like to talk about reconstruction teams in 
Afghanistan. In my view, it should not be called 
reconstruction. You should just get rid of that lingo here. 
They should be provincial redevelopment teams, not 
reconstruction teams. Reconstruction assumes there is something 
there to start out with that needs reconstructing.
    My first visit was in Christmas of 2003 with Pete 
Schoomaker to Gardez. I was very impressed, thought this was 
exactly the right thing to be doing.
    Essentially they look the same now as they looked then; or 
at least the last time I visited, they look the same now as 
they looked then.
    With hindsight, we obviously should have created a 
university, if necessary funded a university, in the capital to 
train Afghanis to do--Afghans to do what we have Americans 
trying to do in these PRTs. It is less expensive, it is safer, 
and it accomplishes the goal of showing some reasonable 
presence by the Afghan Government instead of us being the face 
of development.
    So by calling them provincial development teams, I would 
change the composition as rapidly as possible. By now there 
should be very few Americans in those teams. After five or six 
years, they should be almost entirely Afghan driven, and they 
should be Afghan faces throughout the country, probably more of 
them.
    The challenge of Afghan First, you know, Iraq First, Afghan 
First, is that the central government is corrupt and 
incompetent. Where Iraq is concerned, they didn't have the 
capacity, but, you know, there are some corruption issues. But 
we didn't think it was major corruption problems. They just 
didn't have the capacity to deal with large amounts of money 
getting them out. So Afghanistan, no capacity, corruption, and 
incompetence. Somehow we need to do that, but it needs to be an 
Afghan face throughout the development of the country, and I 
would like your comments about that.
    Ms. Williams-Bridgers. A comment. I think you are exactly 
right, and you have hit a very key point here. These are two 
very different environments, and our assumptions must be 
different, given the environments that we are dealing with.
    With Iraq you have an educated populace, and in Afghanistan 
you have a 70 percent illiterate population.
    Iraq is considered almost a middle-income country, $4,000 
per capita, and Afghanistan substantially less than $500 per 
capita to start with.
    One of the key concerns expressed by DOD about the capacity 
of the personnel that they are training is that they would not 
be able to--this is the Afghan National Security Forces--would 
not be able to exercise command, control; would not have the 
capacity to perform the logistics; would not have the capacity 
to perform the intelligence and data gathering.
    Mr. Marshall. If I could interrupt, in my last visit I 
found out that we have Afghan doctors who are serving as clerks 
to U.S. Army units instead of being out there providing medical 
services to the Afghan people. That is how skewed all of this 
is.
    And I am sorry I don't have more time. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, a question on Iraqi reconstruction. I think 
that there was a GAO report that came out last summer that at 
that time, at least, talked about the surplus in the Iraqi 
budget, and I think the question was raised, given our economic 
situation and given theirs--and I know since that time, 
obviously, there has been a decline in the price of oil, which 
is the basis for the financing of their government--but, I 
mean, at what point will the American taxpayer say enough is 
enough?
    Ms. Williams-Bridgers. You are quite right. We did report 
last summer and have updated our figures. It is captured in the 
report that was just issued today. We estimate the Iraqi budget 
surplus to be $47 billion. This reflects a somewhat--reduction 
of the last estimate of up to $77 billion surplus that we 
previously reported, and that is due to the declining oil 
prices.
    However, what this surplus largely represents is an 
inability, a lack of capacity of the Iraqi Government to spend 
and execute its budget. There is no doubt that the Iraqi 
Government has the resources to cover what they anticipate this 
fiscal year to be deficit spending. We believe that even with 
their projected deficit that they anticipate incurring, that 
they can more than cover it with the surplus that we have.
    The Congress has even recently recognized the need to 
increase the incentives to the Iraqi Government to spend more 
of their money. This was realized in legislation that the 
Congress enacted last year calling for the Iraqis to match 
dollar for dollar their spending to U.S. spending under the 
economic support funds.
    We are concerned, sir, that the Department of State, who is 
charged with reporting to the Congress on the Iraqis attendant 
to this requirement for dollar-for-dollar matching, that the 
State Department is merely looking at Iraq's reflection in 
their budget of their commitment to spend, but is not actually 
tracking their expenditures in this dollar-for-dollar matching 
program, in this incentives-management program. So we think 
this is an area that Congress needs to pay particularly close 
attention to in order to achieve the kind of cost-sharing 
arrangement that the Congress intended.
    Mr. Coffman. Thank you.
    To the other Members, and if you could address how critical 
is--when I served in Iraq in 2005 and 2006 with the United 
States Marine Corps, at this point in time how critical are the 
reconstruction dollars to moving the political process forward 
in Iraq?
    Mr. Bowen. The era of spending U.S. dollars for significant 
reconstruction is past. There is about $5 billion to put under 
contract of the roughly $50 billion. Most of that is Iraq 
Security Forces Fund (ISFF) money, and most of that is being 
used to train, equip, provide logistics to the Iraqi Army and 
the Iraqi Police.
    CERP still does some significant reconstruction work, but 
most of it, a vast majority of the reconstruction money, has 
been spent. The burden is on the Iraqis now. So the issue is 
the cost-sharing requirement, and we have an audit coming out 
in the next month that will provide you insight and analysis on 
the success and failures of that cost-sharing process. Again, 
it is a challenge, an integration; it is a challenge in 
interpretation of the statutes. It is a challenge to getting 
Iraqis to seriously shoulder their long-term development and 
the burden of their own nation.
    General Fields. Thank you, sir.
    Let me comment on the issue of capacity. Iraq and 
Afghanistan are on different ends of the spectrum when it comes 
to capacity. There are limited resources in Afghanistan. There 
is no oil or any material such as that to help support the 
economy of Afghanistan, so there is no surplus. The 
international community is largely financing the reconstruction 
of Afghanistan and other elements of its development at this 
point in its history.
    We do need to build a capacity, however, and in so 
contributing, we need to involve the Afghans more in the 
process. And I would add that in reference to the previously 
asked question or comment regarding the participation or the 
level there of Afghans in the PRT, I could only agree with 
that.
    At the same time, I would also encourage the contribution 
that the Congress has made to CERP as an expedient mechanism 
that the Commander can use to contribute to the overall 
reconstruction efforts.
    In my most recent visit to Afghanistan, I visited two PRTs, 
and I have previously visited Gardez, in fact; but most 
recently, a PRT in Kunar Province, Asadabad, and the PRT up in 
the Panjshir Valley. Both are well-led PRTs, both lack the 
participation of the Afghans in the process, and both shared 
with me the significance of CERP.
    But I want to make a key point to this committee that the 
PRTs' commanders--both of them are U.S. commanders--tell me 
that we have essentially, through process and bureaucracy, 
taken the ``E'' out of ``CERP'', the emergency aspect of it, 
such that it takes too long to work the process to get the 
money down to the level at which it might be executed, which is 
the PRTs, and CERP is a principal funding mechanism for the 
PRTs.
    So I am asking that there be consideration for relief, 
whatever might be offered in that regard, to streamline the 
process by which CERP arrives at the commander for execution.
    The Chairman. Mr. Bowen.
    Mr. Bowen. Yes, sir.
    The Chairman. Our committee has authorized some $40 billion 
for reconstruction in Iraq. In your professional opinion, based 
upon your review and investigation, how much or what percentage 
of that has been wasted?
    Mr. Bowen. Yes, Mr. Chairman, I remember we had this 
discussion previously, and I said I would come back to you, and 
that time is now, with respect to the waste.
    The Iraq Relief Reconstruction Fund (IRRF), as you know, 
has been the primary vehicle for spending on reconstruction, 
and we have had oversight of that fund for four years, full 
oversight. And my estimate, based on 135 audits that we have 
conducted and 135 inspections, is about 15 to 20 percent of the 
funds, or $3 to $5 billion, was wasted.
    And I told you I was visiting with a contractor yesterday 
who was talking to me about this issue, waste in Iraq, and he 
echoed exactly what we have been saying in our reports, and 
that is that the United States chose the wrong contracting 
vehicle to carry out this mission.
    You remember in April of 2004, we let 12 $500 million 
reconstruction contracts, cost plus. I called them open 
checkbook, I think, at the hearing two years ago because cost 
plus covers everything. Your subcontractor messes up, that is 
okay. We pay for it. Your second subcontractor messes up, okay, 
we pay for it.
    The Khan Bani Saad prison, 40 minutes north of Baghdad, $40 
million down the tubes, no prisoner will ever be housed there, 
and what are the consequences? Are we going to be able to hold 
persons for that? No. Why? Because of the selection of this 
vehicle for carrying out reconstruction in a war zone.
    Cost-plus contracts, I think, is a huge lesson learned from 
Iraq, and they need to be reformed. The National Defense 
Authorization Act (NDAA) took some important steps to reining 
in contractor abuses last year, this committee did, but more 
needs to be done, and frankly, the $3 to $4 to $5 billion that 
is lost, and I am speaking conservatively, was lost because 
chiefly, one, we chose the wrong vehicle for the wrong 
environment, and contractors took advantage of it.
    The Chairman. Your testimony is that the 15 to 20 percent 
of the $48 billion has been wasted as a result of the reasons 
you just gave?
    Mr. Bowen. Excuse me, of the $21 billion in the Iraq Relief 
Reconstruction Fund. The other large fund, $18 billion in the 
Iraq Security Forces Fund, is a different animal. We just had 
oversight of that for a year.
    The Chairman. Then let us go back.
    Mr. Bowen. Yes.
    The Chairman. Fifteen to twenty percent of what fund?
    Mr. Bowen. Of the Iraq Relief Reconstruction Fund.
    The Chairman. And how much was that?
    Mr. Bowen. Twenty-one billion.
    The Chairman. So 15 to 20 percent of the $21 billion, as 
opposed to the $48- figure I gave you; is that correct?
    Mr. Bowen. Yes, sir
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank, Mr. Chairman.
    Mr. Bowen, I would like to talk a little bit more about 
contractors and some of the what you call lessons we have 
learned or didn't know at the time. Are you being a little soft 
by saying these are lessons? Is this something that should have 
been pretty obvious at the outset?
    Mr. Bowen. Well, as I have briefed, Ms. Shea-Porter, over 
in Iraq just three weeks ago when I was there, these are 
lessons, but I opened my briefing with some of them, and they 
are self-evident. They really should be axioms.
    It is not difficult, I think, to understand that you need a 
secure environment to carry out large-scale reconstruction, but 
a large-scale reconstruction plan continued to move forward in 
the context of an exploding insurgency.
    It wasn't until Ambassador Negroponte got on the ground, 
looked at the situation, looked at the investment, and saw huge 
discontinuity between the two that he put the brakes on it. 
Unfortunately, he put the brakes figuratively. The meter was 
still running on each of those contracts. And as our audits 
pointed out, the overhead cost the taxpayers hundreds of 
millions of dollars in waste.
    Ms. Shea-Porter. I wanted to talk about those taxpayers. 
People in New Hampshire say to me, where are the indictments? 
Who is looking, and is there ever going to be anybody who has 
to pay for this? And so I am asking you is there ever going to 
be anybody who has to pay for what has been done to the 
American taxpayer?
    Mr. Bowen. To date we have achieved 15 indictments from our 
investigation. We have 77 open cases. Another five indictments 
will be coming down from--based on our arrests. I have 
increased my investigator staff over the last year by 40 
percent to address exactly this issue.
    For whatever reason, whistleblowers have been more 
forthcoming over the last year. Our caseload has increased just 
in the last 4 months from 52 cases to 77, and that is 
reflective, I think, of perhaps people feeling more safe in 
Iraq to talk to us, and also because of our more robust results 
on the investigative side.
    So, yes, I am committed to making 2009 the year of success 
in SIGIR investigations.
    Ms. Shea-Porter. Is there anything we can do for you to 
make that possible? The American public wants accountability. 
We want accountability, and I think we also want to make sure 
that it is not just a lesson learned because they think that 
people in charge understood those lessons quite well. I think 
there has to be some way to rebuild the confidence of the 
American public as we go forward and do our work in 
Afghanistan.
    Mr. Bowen. I think there are important steps to take in 
light of what Hard Lessons teaches, and it is what I said in my 
opening statement. The United States does not have a coherent, 
well-developed policy for managing contingency relief and 
reconstruction operations. I think that is an issue for the 
committee to take on.
    It is not just DOD, it is not just State, it is a continuum 
of operations that moves from conflict to development in a 
contingency. The reality is we ad hoc'd it, and we have ad 
hoc'd it for decades in this area, critical area, protecting 
U.S. interests abroad.
    We know who protects our interests abroad preconflict, the 
State Department settled; conflict, DOD settled. They both do a 
great job. Contingency operations, it is not clear, and it is 
ad hoc in each case.
    So I think that there are several solutions. Let me just 
list them real quick. One would be to create a sort of Federal 
Emergency Management Agency (FEMA)/United States Trade 
Representative (USTR)-type contingency operation office within 
EOP, the Executive Office of the President, where the Director 
of Contingency Operations would regularly prepare, develop the 
Civilian Reserve Corps, develop the Information Technology (IT) 
systems, develop the contracts, develop the personnel process, 
so that you are ready. Or put either--as the NDAA presumed to 
do in the Reconstruction Stabilization Civilian Management Act 
last October, put the State Department in charge. But DOD needs 
to be integrated. Or, as DOD is already moving well down the 
road in 3000.05, Stability Ops takes the lead.
    But the key is achieving integration and preparation and 
doctrine beforehand so that it doesn't get invented in offices 
like the Program Management Office no one had ever heard of. 
The Coalition Provisional Authority (CPA), Iraq Reconstruction 
Management Office (IRMO), Project and Contracting Office (PCO), 
all of these, this alphabet soup of agencies that are gone, but 
had charge. And it is difficult to hold them responsible, hold 
them accountable. They don't exist anymore.
    Ms. Shea-Porter. Thank you. And I have one other question, 
if any of you would like to answer this.
    When I went to Iraq last time, we were using contractors to 
guard the bases. And some of the contractors in this particular 
group were from the continent of Africa, and I didn't even 
think that they even understood English, never mind understood 
what I thought they needed to know in order to properly defend 
our troops there.
    Is there a risk, an inherent risk, of having people besides 
Iraqis or U.S. soldiers defending and protecting our bases, and 
have you looked at any of those contracts?
    Mr. Bowen. I think there is a risk, and you are right. The 
Peruvian guards that worked for Triple Canopy that guarded the 
palace didn't speak English. I experienced that personally.
    I was walking out of the palace in August of 2007, very hot 
day. The alarm ran off. I jumped in the bunker with several 
Peruvian guards, and we weren't able to communicate about what 
was going on.
    The reality is that is part of how the contracting works. 
They find the least expensive subcontractor. And that was an 
issue that was raised by the Chief Executive Officer (CEO) who 
I talked to yesterday is look down at the subcontractor level, 
that we hired a bunch of contracting entities that made a lot 
of money as they subcontracted at a much lower rate.
    And so I think there is--we continue to do security 
contract reviews, and we have several that are coming out this 
quarter under the 842 plan.
    Ms. Shea-Porter. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    While it is at once frustrating to be so late in the 
question and answer (Q&A) session, while at the same time I 
learn a lot from my colleagues from the panel, so it is a good 
position to be in many ways.
    The first question to Mr. Bowen. Do you think it is 
possible that the only way we can get beyond sort of an ad hoc 
approach to all of this is for us as a country to accept the 
fact that we may, in fact, have to engage in nation-building?
    Mr. Bowen. Mr. Loebsack, that is a great point. It raises 
the issue, the--managing contingency relief and reconstruction 
operations, how we do it falls within a spectrum. At one end is 
no nation-building whatever. At the other end is colonialism. 
These are impossible options.
    The place where the United States should find itself is 
here in the center of this continuum, in a suitable, 
appropriately funded, well-structured, developed doctrine for 
executing contingency relief and reconstruction operations. 
Where you achieve unity of command, that is the core issue in, 
I think, in Iraq and Afghanistan.
    There are a number of commanders who control different pots 
of money, and frequently the color of that money and who the 
departmental reporting officials are shape this strategy rather 
than an overarching strategy where one person is in charge so 
that you achieve unity of purpose. So that the answer is the 
history of the last 40 years show that we are going to engage 
in contingency operations, call it some form of nation-
building. It is not out at this end of the spectrum, but we 
have to prepare, as we were a little bit close to this side in 
2003.
    Mr. Loebsack. I really want to thank all three of you for 
your wonderful testimony, and many of my colleagues have raised 
really wonderful points prior to my asking you some questions. 
Certainly the whole idea of interagency coordination and 
cooperation is one that is so frustrating for, I think, all of 
us, for sitting here and looking back on what happened in Iraq 
and what may be happening in Afghanistan as well.
    And I want to thank you, Ms. Williams-Bridgers, because I 
was going to ask, well, who is really responsible for that? You 
brought up the National Security Council (NSC), and that is 
sort of the logical place for this. I hope that the current NSC 
is, in fact, taking into account not only your study, but some 
of your recommendations as well.
    I want to thank Mr. McHugh, then, for raising the point, 
too, as to whether this Administration has consulted with any 
of you or not.
    If we are going to have the most rational foreign policy we 
possibly can, we have to learn from our mistakes. There is 
absolutely no way around it.
    I do have one question. I guess it is for General Fields 
and for Ms. Williams-Bridgers, related to Afghanistan. There is 
a Washington Times article published this morning, and it 
states that at one point road projects accounted for 70 percent 
of Commander's Emergency Response Fund (CERP) funding, 
exceeding the capacity of the Army Corps of Engineers, and 
leading to an 18-month backlog at the same time the Afghan 
Health Minister was allegedly told there were no funds 
available for urgent humanitarian needs.
    This also goes to the issue of soft power that you have 
mentioned that I think we all agree has to be an integral part 
of whatever strategy we adopt with respect to Afghanistan.
    Major General Fields, is SIGAR looking into who authorized 
the use of such a high percentage of CERP funds for road 
construction at this point?
    General Fields. Thank you, sir. We have several audits 
ongoing as we speak. And, in fact, I made the decision several 
months ago, well in advance of the article of which you speak 
and about which I am aware, to look into CERP. In my frequent 
dialogue with the Congress overall, we receive occasional 
vectors of interest to the Congress, and one of those has been 
the issue of CERP.
    So we have been planning for some time to look into CERP, 
and we are in the midst of that as we speak, and I am not at 
this point in time prepared to arrive at conclusions or 
findings upon which any decisions can be made, certainly.
    Mr. Loebsack. Can we go back to an original question that 
was asked of you as to whether your budget--how much did you 
say you requested from the Office of Management and Budget 
(OMB)?
    General Fields. Sir, for this year, fiscal year 2009, we 
actually requested $23.2 million.
    Mr. Loebsack. Was any of that accepted at this point by 
OMB?
    General Fields. Sir, we have in our bank, if you will, at 
this point $16 million, and we have been spending that since 
about October of last year. And that amount of money is now 
down to at or about $11 million, and we still have the rest of 
the year to go. And without the $7.2 additional to flesh us out 
to that $23.2-, we will not be able to bring aboard the robust 
staff that is commensurate with the robust mandate that the 
Congress has imposed upon us.
    Mr. Loebsack. Thank you. I hope it is included on the 
budget, then. Thank you very much.
    Thanks to all of you, Mr. Chair.
    The Chairman. Susan Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you.
    I wanted to follow up with the discussion of the extent to 
which we put the Iraqi face, the Afghani face engaged 
wholeheartedly in this effort. And I wanted to just talk about 
the faces of women for a second. And I am wondering to what 
extent you believe that there has been a conscious, a 
significant effort to engage women in this redevelopment, 
reconstruction, in the community.
    And one of the issues I just want to point to quickly is I 
think today's Washington Post, a representative from Mercy 
Corps, a nongovernmental organization (NGO) with programs in 
Afghanistan, suggested that those lines between United States 
Agency for International Development (USAID) and the State 
Department have been so blurred.
    And the question really is--I would like to talk about been 
the faces of women and their involvement--but to what extent we 
have had success, depending on whether it is a U.S. agency that 
has been involved or the military in some of these programs; 
what difference does it make in terms of the response, the 
public opinion that is generated in this area, and to what 
extent do you think women's voices have been ignored and/or 
really engaged in this effort?
    Ms. Williams-Bridgers. I will start. Unfortunately, none of 
our work has focused specifically on the attention that is 
given to women as part of our overall strategy. I do know in 
the Afghan development strategy, for example, there is specific 
reference to a goal, desire, to enhance the educational 
achievements of women and incorporation of women into society, 
but I have not looked at that specifically. Our work has not 
spoken to that issue specifically. However, we do know that 
generally when you look at investments in developing countries, 
that investment in women is often a pivotal investment focus 
for returns on economic growth and economic development in 
countries.
    So certainly it is an important issue, but one that we just 
have not done any work to specifically address.
    Mrs. Davis. Mr. Bowen.
    Mr. Bowen. Yes. Ms. Davis, page 46 of our quarterly report 
talks about the Daughters of Iraq program that has incorporated 
women into the security programs, sort of a parallel to the 
Sons of Iraq.
    Also the Joint Contracting Command-Iraq/Afghanistan (JCC-I) 
chief, the major contracting arm for the Department of Defense, 
has, through its Iraqi First program, gives preference to 
women-owned businesses. So there are--those are two substantive 
initiatives.
    As a general matter, USAID's programs have reached out to 
the women's community across Iraq for a number of years and 
continues to develop at the grassroots level, using an Iraqi 
face.
    Chapter 26 in Hard Lessons really underscores that story, 
how USAID, through its partner organizations, developed this 
Iraqi face through its programs to both address the security 
problem, but also to make the outreach more effective.
    Mrs. Davis. What I would hope, perhaps, as we continue to 
look at these issues and really to understand the role that the 
grassroots is playing, is that we would be asking specifically 
those questions with data to back that up in terms of 
leadership, in terms of responsibility that is given in those 
communities, because I think the women that we have had an 
opportunity to speak with--and several of us will be trying to 
focus on that specifically in Afghanistan--is that they haven't 
necessarily been at the table, and we know that in terms of 
building that civil society, it is really critical.
    So I think if we have that as an accountability measure, 
and we ask the question, how many are around the table, then I 
think it begins to filter through. We know the capability is 
there, that is not the issue, but it is whether or not they are 
really asked and whether or not anybody thinks it is important. 
I would hope that we could do that.
    And just to follow up on that second question, it doesn't 
matter who is doing the redevelopment, reconstruction project 
in terms of public opinion, whether or not it is, you know, 
pseudomilitary versus civilian. What do we know about that?
    Mr. Bowen. Yes, it does matter. And, indeed, many 
reconstruction projects around Iraq, they are purposefully 
given through subcontracting an Iraqi face. A U.S.-funded 
project, frankly, there is no evidence on the face of the 
project that the source of funds is the U.S., and that is 
purposefully done for security reasons.
    The Chairman. Mr. Kissell. We have votes scheduled very 
shortly. As I understand, we have Mr. Ellsworth, Mr. Massa 
after Mr. Kissell, and I believe everyone will have had a 
chance to do the first round.
    If there is an opportunity for the second round, if there 
is time for it, fine. But probably not.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. As I sit here-- and 
thank you all for your testimony. And I am going to probably 
say a few things that are on my mind before I ask my question.
    I read a book recently, and it was about a gentleman whose 
life had not gone real well, and he made the statement that 
history can repeat itself, but you have to try real hard to 
make the same mistakes over and over again.
    As I listened to the testimony today, I couldn't help but 
to go back to that statement I hear about that we didn't build 
the things that they wanted in Iraq, we are not building the 
things they want in Afghanistan. We have spent $32 billion in 
reconstruction in Afghanistan, but, as Mr. Marshall pointed 
out, reconstruction from what? We really don't have anything to 
show there.
    We hear that we don't really have the procedures in place, 
the accountability in place. It looks like we are repeating 
history by making these same mistakes.
    And one of the first things I went to, as being a new 
Congressman, we were, as rookie Congressmen, challenged by a 
general that had been in Iraq, would we have the courage to 
stand up as Congressmen and address the tough issues of the 
day? And I asked the general, I said--because it seems like we 
have had a history of people that were associated firsthand 
with the problems that we are talking about today who did not 
discuss those problems until they were out of the position they 
were in, then came back to us and said, oh, listen to the 
problems we had. And I asked the general, were the people 
firsthand, and knowledge of what is taking place, forthcoming 
to us in a way that we could understand and deal with the 
issues, and he said, no.
    So my question to each of you, as we look towards trying 
not to make the same errors again in Afghanistan that we know 
we made in Iraq, do you all feel that you have the authority, 
responsibility, obligation to present information to us--I 
think you can tell the atmosphere here is very receiving--so 
that we can see when things are not going right and have a 
chance to do something about it before it becomes so far in our 
rear-view mirror, we say how did that happen?
    Mr. Bowen. Mr. Kissell, that is exactly the philosophy 
behind my organization that has driven my auditing, trying to 
do real-time audit, so to speak, so that the managers on the 
ground know what is going on, and they can adjust course and 
improve it.
    But there are two issues you raised. One is strategic 
solutions and tactical solutions. The strategic solution is 
that we need to reform our government's approach to contingency 
operations. That is going to take some time because it is 
introducing a new framework for preparing. But there are 
tactical solutions, lessons learned in Iraq that should become 
lessons applied in Afghanistan, that could make a difference 
and save taxpayer dollars and promote the success of our 
mission.
    One is develop new wartime contracting rules, rules that 
are more effective, that are designed to execute rapidly on the 
ground, and something that we have talked about in our reports 
for a number of years.
    Two is to take advantage of the civilians who have achieved 
experience in Iraq through provincial reconstruction teams 
(PRTs) and others, and bring that expertise and understanding 
to bear on the ground in Afghanistan.
    Three is to take the tactical lesson from Iraq to build to 
scale to what the capacity of the country is. That is not what 
is happening in Iraq. It is not what has been happening in 
Afghanistan. Afghanistan is much, much lower abilities, much 
lower absorptive capacity for investment.
    Any investment has to be aimed at their absorptive 
capacity. We build above that, you lose it because they can't 
sustain it. And we are going to have an audit coming out in a 
month on asset transfer that underscores the real waste that 
occurs when you build beyond capacity, that the assets don't 
transfer, that they don't make a long-term difference.
    So strategic solutions, tactical solutions, I think those 
are both areas for the committee to grapple with and engage and 
implement resolutions. The big one is how to manage these for 
posterity.
    Ms. Williams-Bridgers. Mr. Kissell, I would say, yes, we do 
have the responsibility. We do understand our obligation to 
report on what we have learned that has worked, as well as what 
we have not. These hearings provide an excellent forum for us 
to do that.
    With the new Administration we reached out to provide them 
the information based on what we have learned, and not the 
outstanding recommendations that have never been addressed in 
our mind and fully implemented. But I think we need to continue 
to have the support of Congress to get the access to the 
documents that allow us to render judgments of what works and 
what does not.
    The Chairman. I thank the gentleman.
    In contrast to your comment, Mr. Kissell, about history 
repeating itself, my fellow Missourian Mark Twain once said, 
history doesn't repeat itself, but it sure rhymes a lot.
    We have two more, and we should break. I think we can get 
them both in before we go vote, Mr. Ellsworth and Mr. Massa.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman. Thank you all for 
being here today. This is of great interest to me.
    I have heard our distinguished Chairman refer to himself as 
a simple country lawyer many times, and as a simple county 
sheriff in a previous life, this is very disturbing to me.
    There is a young man in the fourth row, blue shirt, 
glasses. Sir, would you hold the book up you carried in? 
Flimflam is the title. And I get the distinct impression we are 
getting a lot of flimflam, not from you all, but from what is 
going on over there. Doesn't matter how many times I have been 
to Iraq and Afghanistan. I keep getting this report from people 
about what is going on there.
    I guess my question is that, you know, what are the things 
that we are doing that they don't want? Who has the authority 
to pull the plug and say, these things are going so wrong, why 
doesn't somebody pull the plug, and we write those policies and 
write those procedures. Instead of going and continuing the bad 
behavior while--and keep spending the billions of dollars, 
let's do food, water, medicine, and shelter, and then write the 
policy, and then come back and do it.
    Those are the things they need. That is what your polls 
have showed. They want water, they want food. If we are 
building roads, it is like buying a bunch of new Sony TVs and 
nobody having cable or an antenna and not getting anything.
    So why don't we do the things we need? Who has got that 
authority, and why aren't we beating on somebody's desk to say, 
pull the plug and let's step back a little bit and just do the 
things we need? And that would be my first question.
    Mr. Bowen. Well, Mr. Ellsworth, I would just say in Iraq 
that lesson has been learned. The failure I was speaking to was 
the failure of the original plan that built beyond 
expectations. I think, though, that it is still applicable in 
Afghanistan. And the key is to build not to just what they 
want, but also what they can do to their capacity. For example, 
the Fallujah wastewater treatment plant that I visited last 
August, what they wanted was something that ultimately is 
proving a little bit beyond their capacity.
    So it is a balancing act. It is a tough issue.
    But the reality is that we are contracting chiefly with 
Iraqi firms now, and we are choosing projects chiefly by 
working through the Provincial Reconstruction Development 
Councils and the PRTs, and that means that the selection of 
projects today is wiser. Unfortunately, it is also when the 
money has run out.
    Mr. Ellsworth. But, you know, we talked about the waste, 
that I think it was $70-something million for the prison 
because it essentially fell apart because of water and that. 
And we built that prison, but it is my understanding, correct 
me if I am wrong, that the police forces weren't built up. The 
jails, the court system--we didn't have lawyers, judges, 
anything. Other legs of the stool didn't exist. So we build 
this prison out there somewhere, and there was not rule of law 
or a way to put people in prison.
    Mr. Bowen. That is right.
    Mr. Ellsworth. Who thinks of that? What common sense--that 
is not Missouri or Indiana common sense. I said, the flimflam.
    Mr. Bowen. The Khan Bani Saad is a poster child for bad 
project management, all of these issues we are talking about. 
The Iraqis, when it finally came to turn it over to them, the 
Deputy Minister of Justice said, no, we are not going to take 
it. It is not finished. We don't want it, we never wanted it. 
And they refer to in Diyala Province as ``the whale.''
    Mr. Ellsworth. General Fields, you said some of the Afghans 
want to partake in more of the process, and they should. I want 
to be assured that they want to partake in the process of what 
they need and not just in the profits and the corruption. I 
know the corruption is pervasive. Every time I have gone over 
there, they have told me that.
    They need to partake in the process of what they need to 
run it, but we just can't keep throwing these billions of 
dollars of good money after bad. On your next trip I would love 
to go with you. I don't know when you are headed out, but if it 
is on a break, I would love to, and continue this kind of talk 
with the folks over there, and build some common sense back 
into this system that represents all of our districts.
    And I will--if you got a comment, I will wind up my 
questions.
    General Fields. Sir, we welcome you and your staff to 
travel with us. We, at least I personally, make at least 
quarterly visits to Afghanistan, and that frequency may 
increase as we get more deeply into our work.
    In reference to the involvement of the Afghans in 
reconstructing their country, I have seen work executed by 
contractors solely of Afghanistan, and the quality of the work 
has been good. I can cite a provincial police facility in 
Helmand Province that I visited during January. In fact, it is 
the only picture that I elected to put in our January report to 
the Congress because it is profound; not the picture per se, 
but the fact that there is capability, capacity in Afghanistan. 
We, in our early observations, feel that there is more of this 
capacity there than we have otherwise encouraged to participate 
in the reconstruction effort.
    The Chairman. I thank the gentleman.
    Mr. Massa.
    Mr. Massa. Thank you, Mr. Chairman, and thank you for the 
hard work you are doing in representing so many people who 
report to you, often in dangerous conditions.
    We have had several very informative, strategic questions. 
I would like to shift and just ask a very, very specific and 
perhaps impassioned plea, and I will be brief.
    From firsthand experience I know that dealing with large 
numbers of contractors, hundreds of millions if not more 
dollars of government-furnished equipment, often very durable 
communication equipment and other items, have been delivered to 
these the contractors and deployed in the field in both Iraq 
and Afghanistan. I know from firsthand experience that 
equipment is largely, at this point, undocumented and 
potentially lost in the field.
    As we shift focus in Iraq and redeploy our forces, I would, 
with the strongest possible recommendation, ask that you would 
consider deploying a very small number of personnel to do 
whatever possible to find, document, either write off or 
recover as much of this government-furnished equipment as 
possible and return it to the United States, where people in my 
district, like firefighters and emergency medical technicians 
and others, could put this equipment to incredibly important 
use in a very, very harsh economic time in our country.
    So please take that for the record. I would be very 
appreciative if you could get back to me, this committee, or 
any responsible party with anything you might do to be able to 
recapture--and it may be a small fraction--maybe tens of 
millions, but I know you all know $1 million is still a lot of 
money, especially back where I come from.
    Again, thank you for your service, and thank you for your 
patience to my long question.
    The Chairman. I thank the gentleman very much. We certainly 
appreciate your excellent testimony, your appearance here 
today. It has been very informative, and we wish you continued 
success in your hard work as you perform your duties and advise 
us. Thank you very, very much.
    We are adjourned.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 25, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2009

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
                                  <all>

</pre></body></html>
